1a
APPENDIX A
The Supreme Court of the State of Louisiana
STATE OF LOUISIANA
vs.

No. 2019-KH-01815

WILLIE GIPSON,
IN RE: Willie Gipson - Applicant Defendant; Applying
for Supervisory Writ, Parish of Orleans Criminal,
Criminal District Court Number(s) 384-121, Court of
Appeal, Fourth Circuit, Number(s) 2019-K-0857;
June 03, 2020
Writ application denied.
JTG
JDH
WJC
JHB
Johnson, C.J., would grant and docket and assigns
reasons.
Weimer, J., would grant and docket.
Chrichton, J., would grant and docket.
Supreme Court of Louisiana
June 03, 2020
/s/
Clerk of Court
For the Court

2a
SUPREME COURT OF LOUISIANA
No. 2019-KH-01815
STATE OF LOUISIANA
VS.
WILLIE GIPSON
On Supervisory Writ to the Criminal District
Court, Parish of Orleans Johnson, C.J., would
grant and docket and assigns reasons.
I would grant the writ to clarify that the Supreme Court’s recent decision in Ramos v. Louisiana, 140 S. Ct. 1390 (2020) should be applied retroactively to cases on state collateral review.
The Supreme Court has granted certiorari to decide whether Ramos must apply retroactively to
cases on federal collateral review. Edwards v. Vannoy, Warden, --- S. Ct. ---, 2020 WL 2105209 (Mem).
But regardless of the outcome of that case, we are
free to provide our citizens with more than the minimum mandated by the Supreme Court. Danforth v.
Minnesota, 552 U.S. 264, 277-78 (2008). While the
majority of this court has voted to defer until the
Supreme Court mandates that we act, I am persuaded that we should take this opportunity to
squarely address the historic injustices done to Louisiana’s African American citizens by the use of the
non-unanimous jury rule.
In my opinion, Ramos meets the test for retroactive application enunciated by the Supreme Court
in Teague v. Lane, 489 U.S. 288 (1989). But I also
believe it is time we abandoned our use of Teague in

3a
favor of a retroactivity test that takes into account
the harm done by the past use of a particular law.
By either route, Louisiana should give Ramos retroactive effect.
In 1992, we adopted Teague’s test for determining whether decisions affecting rights of criminal
procedure would be retroactively applied to cases in
state collateral review. State ex rel. Taylor v. Whitley, 606 So. 2d 1292, 1296 (La. 1992). In relevant
part, Teague only requires retroactive application of
a new rule if it is a “watershed rul[e] of criminal
procedure” that “implicates the fundamental fairness [and accuracy]” of the criminal proceeding.
Teague, 489 U.S. at 311-312.
Ramos meets that definition. It plainly announced a watershed rule. “The Sixth Amendment
right to a jury trial is ‘fundamental to the American
scheme of justice’ and incorporated against the
States under the Fourteenth Amendment.” Ramos,
140 S. Ct. at 1397 (citing Duncan v. Louisiana, 391
U.S. 145, 148-50 (1968)). Therefore the remaining
question under Teague is whether the Ramos rule
implicates fundamental fairness and accuracy. Because this court denied the instant writ application,
we do not have full briefing on this issue. However,
the existing Ramos record alone supports the conclusion that it does. The law that Ramos struck was
designed to discriminate against African Americans
and it has been successful. For the last 120 years, it
has silenced and sidelined African Americans in
criminal proceedings and caused questionable convictions throughout Louisiana.

4a
The post-Reconstruction Louisiana Constitutional Convention of 1898 sought to “establish the
supremacy of the white race.” Ramos, 140 S. Ct. at
1394. It “approved non-unanimous juries as one pillar of a comprehensive and brutal program of racist
Jim Crow measures against African-Americans, especially in voting and jury service.” Id. at 1417 (Kavanaugh, J., concurring in part). “[A]ware that this
Court would strike down any policy of overt discrimination against African-American jurors as a violation of the Fourteenth Amendment, the delegates
sought to undermine African-American participation on juries in another way. With a careful eye on
racial demographics, the convention delegates
sculpted a “facially race-neutral” rule . . . in order
“to ensure that African-American juror service
would be meaningless.” Id.
Data showing that votes of African American jurors have been disproportionately silenced is compelling evidence that the use of the pre-Ramos rule
affected the fundamental fairness and accuracy of
criminal trials. “In light of the racist origins of the
non-unanimous jury, it is no surprise that nonunanimous juries can make a difference in practice,
especially in cases involving black defendants, victims, or jurors.” Id. at 1417 (Kavanaugh, J., concurring in part). The whole point of the law was to
make it easier to convict African American defendants at criminal trials, even when some of the jurors
themselves were African American. By Louisiana’s
constitutional convention of 1974, which reauthorized the use of the Jim Crow law, the expected ease
of convicting African Americans in Louisiana had

5a
come to simply be described as “judicial efficiency.”
State v. Hankton, 2012-0375, 19 (La. App. 4 Cir.
8/2/13) 122 So. 3d 1028, 1038, writ denied, 20132109 (La. 3/14/14); 134 So. 3d 1193. But despite
“race neutral” language justifying the law in 1974,
it has continued to have a detrimental effect on African American citizens.1 “Then and now, non-unanimous juries can silence the voices and negate the
votes of black jurors, especially in cases with black
defendants or black victims, and only one or two
black jurors. The 10 jurors “can simply ignore the
views of their fellow panel members of a different
race or class.” Johnson v. Louisiana, 406 U.S. 356,
397 (1972) (Stewart, J., dissenting).” Ramos, 140 S.
Ct. at 1414-18 (Kavanaugh, J., concurring in part).
Approximately 32% of Louisiana’s population is
Black.2 Yet according to the Louisiana Department
of Corrections, 69.9% of prisoners incarcerated for
felony convictions are Black.3 Against this grossly
Data on non-unanimous jury verdicts contained in the record
of State v. Melvin Cartez Maxie, 11th Judicial District Court, No.
13-CR-72522 and submitted to the Supreme Court in the Joint
Appendix in Ramos v. Louisiana, shows that African Americans
have been 30 percent more likely to be convicted by non-unanimous juries than white defendants and that African American
jurors casted “empty” votes at 64 percent above the expected rate
whereas white jurors casted “empty” votes at 32 percent less
than the expected rate if empty votes were evenly dispersed
amongst all jurors. Ramos v. State of Louisiana, 2018 WL
8545357, at *51 (2018).

1

Census statistics available at https://www.census.gov/quickfacts/LA (last accessed May 25, 2020).
2

Statistics from the Louisiana Department of Public Safety and
Corrections January 2020 Briefing Book available at

3

6a
disproportionate backdrop, it cannot be seriously
contended that our longtime use of a law deliberately designed to enable majority-White juries to ignore the opinions and votes of Black jurors at trials
of Black defendants has not affected the fundamental fairness of Louisiana’s criminal legal system.
The original discriminatory purpose and the lasting
discriminatory effect of the non-unanimous jury
rule all implicate fundamental fairness.
The rights at issue here also directly implicate
the accuracy of convictions. While many of those
convicted by non-unanimous juries are surely guilty
of the crimes of which they were convicted, we still
have a subset of convictions where at least one—but
often two—jurors had sufficient doubt of the accused’s guilt to vote “not guilty.” Experience
teaches, and the Ramos decision reiterates, that
those “not guilty” votes should not be cavalierly dismissed as meaningless:
Who can say whether any particular hung
jury is a waste, rather than an example of a
jury doing exactly what the [Apodaca] plurality said it should—deliberating carefully and
safeguarding against overzealous prosecutions? And what about the fact, too, that some
studies . . . . profess to have found that requiring unanimity may provide other possible
benefits, including more open-minded and
more thorough deliberations?
https://s32082.pcdn.co/wp-content/uploads/2020/03/0Z-Full-Jan2020-BB-3.13.2020.pdf (last access May 25, 2020).

7a
Ramos, 140 S. Ct. at 1401. We need not look far back
in history to be reminded that sometimes the will or
opinion of a majority is wrong and the dissenting
minority was factually, or morally, correct. But during the 120 years of Louisiana’s non-unanimous
jury scheme, jurors in the majority never had reason
to consider the perspective or opinion of a minority
of dissenting jurors, because—by design—once the
jury reached a consensus of ten, dissenting voices
became irrelevant.4 While we will likely never know
how many factually inaccurate convictions have
rested on non-unanimous verdicts, nor in how many
the rule was a pivotal cause of the wrongful conviction, we know they have occurred.5
The non-unanimous jury rule has “allow[ed] convictions of some who would not be convicted under
the proper constitutional rule, and [has] tolerate[d]
and reinforce[d] a practice that is thoroughly racist

See, e.g., Kim Taylor-Thompson, Empty Votes in Jury Deliberations, 113 Harv. L. Rev. 1261, 1274-75 (2000) (a non-unanimous
jury system “eliminates the imperative to engage in substantive
discussions with the minority and . . . instead invites them to
elect the easier course: they need only deliberate long enough to
produce the necessary majority . . . [s]o jurors can acquit or convict without once considering conflicting perspectives on the
meaning or strength of the evidence.”)

4

In 2019 alone, two Louisiana men who had been convicted by
non-unanimous juries were exonerated and freed after fingerprint database searches identified the true perpetrators in both
cases. Archie Williams had spent 36 years wrongly imprisoned
for rape and attempted murder and Royal Clark had spent 17
years wrongly imprisoned for armed robbery.

5

8a
in its origins and has continuing racially discriminatory effects.” Ramos, 140 S. Ct. at 1419 (Kavanaugh, J., concurring in part). By Justice Kavanaugh’s accurate summary alone, Ramos satisfies
the relevant portion of Teague’s test and should be
applied retroactively by Louisiana courts.
But we are not bound to continue using Teague’s
test, and there are good reasons to abandon our decision in Taylor that adopted it. There was little in
the Taylor rationale that commands our continued
adherence to Teague. Dissenting in Taylor, Chief
Justice Calogero explained why Teague’s premise
did not apply to state courts: “[F]ederal courts have
indicated that their reduced intrusion into state
criminal process is motivated by concerns of federalism and comity. State courts should not blindly
adopt these new criteria, because the concerns of
federalism and comity are absent from state criminal court proceedings.” Taylor, 606 So. 2d at 1301
(Calogero, C.J., dissenting). Since this court decided
Taylor in 1992, Congress and the federal courts
have created ever more restrictions on the availability of the federal writ of habeas corpus to prisoners
convicted in state court, further undermining the
premise of Taylor and creating additional imperative for us to revisit its holding.
The importance of the Ramos decision—and the
historic symbolism of the law that it struck—present the opportunity to reassess Taylor and the wisdom of Louisiana using the Teague standard in retroactivity analysis. We should. The original purpose
of the non-unanimous jury law, its continued use,
and the disproportionate and detrimental impact it

9a
has had on African American citizens for 120 years
is Louisiana’s history. The recent campaign to end
the use of the law is already part of the history of
this state’s long and ongoing struggle for racial justice and equal rights for all Louisianans. That campaign meant many more citizens now understand
the law’s origins, purpose, and discriminatory impact. And that understanding contributes to a cynicism and fatal mistrust of Louisiana’s criminal justice system by many citizens who see the lack of fundamental fairness and equal protection afforded to
all. It is time that our state courts—not the United
States Supreme Court—decided whether we should
address the damage done by our longtime use of an
invidious law.
The racist history of the law was not explicitly
relevant to the Supreme Court’s determination that
the Sixth Amendment requires jury unanimity.
However, a majority of the justices considered that
history as one of the principled justifications for
abandoning stare decisis and departing from the
“gravely mistaken” and “egregiously wrong” “outlier” precedent of Apodaca v. Oregon, 404 U.S. 406
(1972) (in which a plurality of the Supreme Court
held that Oregon and Louisiana’s non-unanimous
jury schemes did not violate the Sixth Amendment)
in favor of a correct interpretation of the Sixth
Amendment’s jury requirement. Ramos, 140 S. Ct.
at 1405, 1418.6 That history should be just as—if not
The Court’s majority opinion noted that “Apodaca was gravely
mistaken [and] no Member of the Court today defends [it] as
rightly decided . . . . The [Apodaca] plurality spent almost no
6

10a
more—persuasive to us in deciding whether to overrule the erroneously reasoned Taylor case. I am persuaded that we should, and that we should replace
Teague’s test with one that, at least in part, weighs
the discriminatory effects of a stricken law when determining retroactive applicability in Louisiana.
There are some rules of procedure untethered to
our history of discrimination against African Americans where the question of retroactive application
may carry less weight. But this was an intentionally
racially discriminatory law that has disproportionately affected Black defendants and Black jurors.
There is no principled or moral justification for differentiating between the remedy for a prisoner convicted by that law whose case is on direct review and
one whose conviction is final. Both are equally the
time grappling with the racist origins of Louisiana’s and Oregon’s laws.” Ramos, 140 S. Ct. at 1405. Justice Kavanaugh further explained the relevance of the law’s history:
“…[T]he disputed question here is whether to overrule an
erroneous constitutional precedent that allowed nonunanimous juries. And on that question—the question
whether to overrule—the Jim Crow origins and racially
discriminatory effects (and the perception thereof) of
non-unanimous juries in Louisiana and Oregon should
matter and should count heavily in favor or overruling,
in my respectful view. After all, the non-unanimous jury
‘is today the last of Louisiana’s Jim Crow laws.’ And this
Court has emphasized time and again the ‘imperative to
purge racial prejudice from the administration of justice’
generally and from the jury system in particular.”
Ramos, 140 S. Ct. at 1418 (Kavanaugh, J., additionally concurring) (citing T. Aiello, Jim Crow’s Last Standin: Nonunanimous
Criminal Jury Verdicts in Louisiana, 63 (2015)).

11a
product of a racist and unconstitutional law. If concerns of comity and federalism ultimately mean that
the federal courts do not force us to remedy those
convictions which are already final through a writ
of habeas corpus, the moral and ethical obligation
upon courts of this state to address the racial stain
of our own history is even more compelling, not less.
“Any decision by [the Supreme] Court that a new
rule does not apply retroactively under Teague does
not imply that there was no right and thus no violation of that right at the time of trial—only that no
remedy will be provided in federal habeas courts.”
Danforth, 552 U.S. at 291. I believe we must formulate a new test for determining whether a decision
be applied retroactively; one that includes a consideration of whether a stricken law had a racist origin,
has had a disproportionate impact on cognizable
groups or has otherwise contributed to our state’s
history of systemic discrimination against African
Americans. And under any such test, I believe Ramos would have to be retroactively applied.
Mr. Gipson is Black. He was 17-years-old when
he was arrested in 1996. He was convicted of second
degree murder by a jury vote of 10-2 based on the
trial testimony of a single eyewitness who, before
identifying Mr. Gipson from a photoarray, had told
police that, “[i]t would be kind of like hard [to identify the perpetrator]” and “maybe if I see the photos
I probably could [identify the perpetrator] because I
really didn't look, you know, really see him that
well.” State v. Gipson, 98-0177 (La. App. 4 Cir.
11/17/99); 747 So.2d 187, 190, writ denied, 2000-

12a
0241 (La. 12/8/00); 775 So.2d 1076. He has challenged his conviction by non-unanimous jury verdict
on collateral review under the Fourteenth Amendment’s Equal Protection clause rather than the
Sixth Amendment. However, Ramos should apply to
anyone convicted by a non-unanimous jury, regardless of the words they have used or the constitutional provisions they have cited to challenge their
conviction.
We should not reject retroactivity through a fear
that we will “provoke a ‘crushing’ ‘tsunami’ of follow-on litigation.” Ramos, 140 S. Ct. at 1406. The
Court made clear in Ramos that such functionalist
assessments have no place in considering fundamental rights. “The deeper problem is that the [Apodaca] plurality subjected the ancient guarantee of a
unanimous jury verdict to its own functionalist assessment in the first place.” Id. at 1401–02. Likewise, such a functionalist assessment should have
no place in our decision as to whose convictions will
be remedied by Ramos. Even if we performed such
a functionalist assessment, the benefits of applying
Ramos retroactively greatly outweigh the costs. To
be sure, addressing a history of legally-sanctioned
racism in our criminal justice system will come with
a significant fiscal and administrative cost. But it is
a cost we must bear if we mean to show that we
guarantee all Louisianans equal justice. We must
not “perpetuate something we all know to be wrong
only because we fear the consequences of being
right.” Id. at 1408. The cost of giving new trials to
all defendants convicted by non-unanimous juries
pales in comparison to the long-term societal cost of

13a
perpetuating—by our own inaction—a deeply-ingrained distrust of law enforcement, criminal justice, and Louisiana’s government institutions.
Defendants convicted by non-unanimous jury
verdicts are prisoners of a law that was designed to
discriminate against them and disproportionately
silence African American jurors. Simply pledging to
uphold the Constitution in future criminal trials
does not heal the wounds already inflicted on Louisiana’s African American community by the use of
this law for 120 years. The reality of that harm “and
the resulting perception of unfairness and racial
bias—[has] undermine[d] confidence in and respect
for the criminal justice system.” Id. at 1418 (Kavanaugh, J., concurring in part). At stake here is the
very legitimacy of the rule of law, which depends
upon all citizens having confidence in the courts to
apply equal justice.

14a
APPENDIX B
NO. 2019-K-0857
COURT OF APPEAL, FOURTH CIRCUIT
STATE OF LOUISIANA
STATE OF LOUISIANA
VERSUS
WILLIE GIPSON
IN RE:

WILLIE GIPSON

APPLYING FOR: SUPERVISORY WRIT
DIRECTED TO:

HONORABLE DENNIS J.
WALDRON
CRIMINAL DISTRICT COURT
ORLEANS PARISH
SECTION “G”, 384-121

WRIT DENIED
Relator seeks review of the trial court’s judgment
which denied his application for post-conviction relief. The writ is denied.
New Orleans, Louisiana this ___ day of ___, ___.
Judge Roland L. Belsome
Judge Daniel L. Dysart
Judge Regina Bartholomew-Woods

15a
STATE OF LOUISIANA

*

NO. 2019-K-0857

*

VERSUS

*

COURT OF APPEAL

WILLIE GIPSON

*
*
*

FOURTH CIRCUIT
STATE OF LOUISIANA

*******
BARTHOLOMEW-WOODS, J., CONCURS
I concur with the denial of the writ. Until the
United States Supreme Court opines whether all defendants, even those defendants who have been convicted prior to the amendment to Louisiana’s constitution, are entitled to a unanimous jury verdict, this
Court is without the legal authority to revisit the
issue as it relates to the retroactive application of
the law to defendants similar to Relator.1

1 State v. Ramos, 2016-1199 (La. App. 4 Cir. 11/2/17); 231 So.3d
44, writ denied, 2017-2133 (La. 6/15/18); 257 So.3d 679, and writ
denied sub nom. State ex rel. Evangelisto Ramos v. State, 20171177 (La. 10/15/18); 253 So.3d 1300, and cert. granted, 139 S.Ct.
1318; 203 L.Ed.2d 563 (2019).

16a
APPENDIX C
CRIMINAL DISTRICT COURT OF ORLEANS
PARISH, LOUISIANA
SECTION “G” Judge: THE HONORABLE
DENNIS WALDRON
Minute Clerk: MARCELLE BUTSCHER
Court Reporter: NANCY FREMEN
Assist. D.A.: SARAH DAWKINS,
ERIC CUSIMANO,
GEMINESSE DORSEY
Date: TUESDAY, September 10, 2019
Case Number: 384-121
State of Louisiana
versus
WILLIE J GIPSON
Violation: RS.14 30.1
AS TO DEF, WILLIE J GIPSON,
IN CONNECTION WITH THE DEFENDANTS APPLICATION FOR POST CONVICTION
RELIEF FILED ON 8/23/2019 AND THE SUPPLEMENTAL APPLICATION FILED
ON 9/9/2019. THE COURT AFTER REVIEW OF
THE DEFENDANTS APPLICATION AND THE
LAW, THE COURT DENIES THE APPLICATION
FOR LACK OF MERIT.
A COPY OF THIS MINUTE ENTRY WAS SENT TO
THE DEFENDANT AT THE ADDRESS PROVIDED.
MARCELLE BUTSCHER, Minute Clerk

17a
APPENDIX D
747 So.2d 187
Court of Appeal of Louisiana,
Fourth Circuit.
STATE of Louisiana
v.
Willie J. GIPSON.
No. 98-KA-0177.
Nov. 17, 1999.
Attorneys and Law Firms
Harry F. Connick, District Attorney, Nicole Barron,
Assistant District Attorney, New Orleans, Counsel
for Plaintiff.
Donald O. Pinkston, New Orleans, and Laura Pavy,
Louisiana Appellate Project, New Orleans, Counsel
for Defendant.
(Court composed of Chief Judge ROBERT J.
KLEES, Judge MIRIAM G. WALTZER and Judge
ROBERT A. KATZ).
Opinion
KLEES, Chief Judge.
On July 18, 1996, the State filed a bill of information charging the defendant-appellant Willie
Gipson with one count of second degree murder, a
violation of La. R.S. 14:30.1. The defendant was arraigned and entered a not guilty plea on July 22,
1996. A motion hearing was held on November 8,

18a
1996, at which time the trial court denied the motions to suppress the identification and evidence.
Following a trial on May 1, 1997, a twelve-person
jury returned a verdict of guilty as charged. The defendant’s post-verdict motions were denied on September 4, 1997. On October 31, 1997, the trial court
sentenced the defendant to life imprisonment without the benefit of probation, parole, or suspension of
sentence. Defendant appeals this sentence.
FACTS
On March 28, 1996, Officer Wellington Beaulieu
was assigned to community policing and was working on foot patrol in the Florida housing project.
While in the 2600 block of Alvar, he and his partner
heard several shots of gunfire in the area of the 2600
block of Bartholomew. After calling dispatch, the officer proceeded the one-half block to Bartholomew,
where he observed a black male lying face down in
the driveway. The victim, Roy Simon, had sustained
several gunshot wounds. After calling for an emergency unit, the officer interviewed Sabrina Simon,
the victim’s wife. The officer obtained information
that a black male, wearing a green shirt, fled on a
bicycle. Later, while filling out the pertinent reports, Officer Beaulieu received information by
phone as a result of which he went to 2538 Mazant
Street to look for a bike and a subject armed with a
handgun. When no one responded at 2538 Mazant,
Officer Beaulieu’s partner left to secure a search
warrant. At that point, the resident of the apartment returned home and gave the police consent to
search. Inside the kitchen, Officer Beaulieu observed a bicycle; the apartment resident stated she

19a
knew nothing about the bike or to whom it belonged.
The bicycle was seized as evidence. At trial, the bicycle was identified by Officer Beaulieu by the tag
and because of its muddy condition. The officer testified that the courtyard was wet and muddy on the
night of the incident. However, on cross-examination, he admitted that he observed no bike tracks in
the area where the victim was shot. He also testified
that the defendant did not live at the Mazant Street
apartment.
According to the trial testimony of Dr. Paul
McGary, an expert in forensic pathology, the victim
Roy Simon had sustained three gunshot wounds.
Three bullets, nine millimeters in diameter, were
recovered from the victim’s body during the autopsy. The fatal wound had entered the victim’s abdomen and collapsed his right lung. Tests on the victim’s bodily fluids were negative for alcohol and
drugs.
Marion Mosley lived next door to the victim and
his wife. On the evening of the murder, Ms. Mosley
was coming down the steps with the victim. The victim walked toward his car while Ms. Mosley proceeded down the driveway to her sister-in-law’s
apartment down the block. As Ms. Mosley was talking to neighbors outside of her sister-in-law’s apartment, she heard shooting and dived into the hallway. Although she was not sure at trial, Ms. Mosley
believed she saw “a bike going through the gap.” It
was too dark to determine if a man or a woman was
on the bicycle. She heard the victim calling,
“Brenda, Brenda, Brenda, I’m shot” and ran over to
him; Ms. Mosley stayed with the victim and called

20a
out for his wife, but the victim’s wife never came.
Ms. Mosley testified at trial that she did not see the
defendant that night.
Detective Fred Austin was the lead homicide investigator assigned to the murder of Roy Simon. After some investigation, the defendant’s name was
developed as a subject. Detective Austin compiled a
photographic line-up which he showed to Sabrina
Simon. Mrs. Simon selected the defendant’s photograph as that of the person who shot her husband
Roy. The photo line-up was conducted on May 9,
1996.
Detective Austin testified at trial that, on the
night of the murder, Sabrina Simon provided a description of the shooter as approximately five feet
eight inches to six feet tall. Ms. Mosley could not
provide any physical description except that of a
black male wearing a green shirt and riding a bike.
Detective Austin further testified that the bicycle
seized from the Mazant Street apartment was examined for fingerprints; the examination was negative for latent fingerprints. The defendant did not
live at the apartment.
Sabrina Simon testified that she had been married to the victim Roy Simon for six and a half years.
They resided on Bartholomew Street in a secondfloor apartment. On the day of the murder, her husband had worked then gone to Mobile One with his
brother-in-law to get an amplifier. After his brotherin-law left, the victim went downstairs to install the
amplifier in his car. Mrs. Simon was in the kitchen
cooking. Their children were in the living room

21a
watching television. As Mrs. Simon looked out the
kitchen window, she could see her husband working
on the car. As she watched, she observed the defendant, whom she had never seen before, “roll up” on a
bicycle and shoot her husband. The defendant did
not stop. Mrs. Simon could see a gun in the defendant’s hand. Mrs. Simon called 911 from the phone in
the kitchen, then gathered her children. Mrs. Simon
and the children went onto the apartment balcony
because she wanted to give the children to her
neighbor so that they would not see their father
downstairs. However, the neighbor, Ms. Mosley,
was downstairs. After Mrs. Simon and her children
went back inside, other neighbors pounded on her
door and took her children. Mrs. Simon went downstairs and stayed with her husband until the ambulance came.
Mrs. Simon testified that she had an opportunity
to see the defendant as he was riding up to her husband’s car. The only clothing she could remember
was a green shirt. Later, Mrs. Simon picked the defendant’s photograph out of the line-up because she
remembered his face.
During cross-examination, Mrs. Simon was
questioned on whether she had made a statement to
police officers on the night of the murder. She recalled making a statement, but could not recall if
she told them she could identify anyone; she was
hysterical. She did recall telling them that she could
identify the person who shot her husband if she saw
him again. Mrs. Simon was also asked if she recalled making a statement on April 6th, one week

22a
after the murder. She testified that she told the police that her husband was shot twice by a thirtyeight or nine millimeter gun and that the perpetrator had medium brown skin.
Defense counsel presented Mrs. Simon with a
written copy of the statement she made to the police
one week after the murder. According to the statement, when asked if she could identify the person
who shot her husband, Mrs. Simon replied, “It
would be kind of like hard cause because when it
happened after I was trying to bring-I ran to the
phone and to bring my children to the neighbor.
That’s how I saw him going through the front court
because I went to the balcony to bring my children
to my neighbor and I saw him coming - through the
front court and rode back toward Mazant where the
other incident happened.” Mrs. Simon’s statement
also reflected that she told the police, when asked if
she got a good look at the perpetrator’s face, “Maybe
if I see the photos I probably could because I really
didn’t look, you know, really see him that well.”
(Id.). Her written statement also reflected that she
told the police that she “was right downstairs in
front [of ](sic) the door” when the incident occurred.
On redirect examination, Mrs. Simon testified
that she could remember the face, from the forehead
to the eyes, of the person who shot her husband. She
could particularly remember his face because of the
subject’s thick eyebrows and eyes that “sit back”.
The defendant did not testify at trial.

23a
DISCUSSION
In the briefs filed by the appellant’s retained and
appointed counsel, the sole issue raised is the sufficiency of the evidence, which, they argue, consisted
solely of the identification of the defendant by Sabrina Simon. The appellant pro se alleges that the
evidence was insufficient because of the inconsistencies in Mrs. Simon’s statements and the great
likelihood of misidentification. Because all of the arguments focus on the issue of whether the State
proved the defendant’s identity as the perpetrator,
they will be discussed together.
This court set out the standard for reviewing
convictions for sufficiency of the evidence in State v.
Egana, 97-0318, pp. 5-6 (La. App. 4 Cir. 12/3/97),
703 So.2d 223, 227-28, as follows:
In evaluating whether evidence is constitutionally sufficient to support a conviction, an
appellate court must determine whether,
viewing the evidence in the light most favorable to the prosecution, any rational trier of act
could have found the defendant guilty beyond
a reasonable doubt. Jackson v. Virginia, 443
U.S. 307, 99 S.Ct. 2781, 61 L.Ed.2d 560
(1979); State v. Green, 588 So.2d 757 (La. App.
4 Cir.1991). However, the reviewing court
may not disregard this duty simply because
the record contains evidence that tends to
support each fact necessary to constitute the
crime. State v. Mussall, 523 So.2d 1305 (La.
1988). The reviewing court must consider the
record as a whole since that is what a rational

24a
trier of fact would do. If rational triers of fact
could disagree as to the interpretation of the
evidence, the rational trier’s view of all the evidence most favorable to the prosecution must
be adopted. The fact finder’s discretion will be
impinged upon only to the extent necessary to
guarantee the fundamental protection of due
process of law. Mussall; Green; supra. “[A] reviewing court is not called upon to decide
whether it believes the witnesses or whether
the conviction is contrary to the weight of the
evidence.” State v. Smith, 600 So.2d 1319 (La.
1992) at 1324.
In addition, when circumstantial evidence
forms the basis of the conviction, such evidence must consist of proof of collateral facts
and circumstances from which the existence
of the main fact may be inferred according to
reason and common experience. State v.
Shapiro, 431 So.2d 372 (La. 1982). The elements must be proven such that every reasonable hypothesis of innocence is excluded. La.
R.S. 15:438. This is not a separate test from
Jackson v. Virginia, supra, but rather an evidentiary guideline to facilitate appellate review of whether a rational juror could have
found a defendant guilty beyond a reasonable
doubt. State v. Wright, 445 So.2d 1198 (La.
1984). All evidence, direct and circumstantial,
must meet the Jackson reasonable doubt
standard. State v. Jacobs, 504 So.2d 817 (La.
1987).
97-0318 at pp. 5-6, 703 So.2d at 227-28.

25a
Credibility determinations, as well as the weight
to be attributed to the evidence, are soundly within
the province of the jury’s trial function. State v.
Brumfield, 93-2404, pp. 5-6 (La. App. 4 Cir. 6/15/94),
639 So.2d 312, 316. The determination of the weight
of the evidence is a question of fact which rests
solely with the trier of fact, who may accept or reject, in whole or in part, the testimony of any witness. State v. Silman, 95-0154, p. 12 (La. 11/27/95),
663 So.2d 27, 35.
As noted above, Mrs. Simon was extensively
cross-examined about her statement to the police,
made one week after the murder, that she really did
not get a good look at the perpetrator’s face. The
jury was able to consider that statement in its totality, including the portion where Mrs. Simon told the
police that she probably could identify the perpetrator if she saw a photograph. The State was also able
to present to the jury that portion of Mrs. Simon’s
statement wherein she told the police that there
was a light right by her husband’s car and that the
area was well lit. Mrs. Simon identified photographs of the scene which depicted the light pole,
the black top of her husband’s car, and the location
of the kitchen window from which she saw the murder. Furthermore, although there was no evidence
to link the defendant to the crime except for Mrs.
Simon’s identification, Ms. Mosley was able to corroborate Mrs. Simon’s testimony that the perpetrator was riding a bicycle.
The appellant pro se argues that “numerous eccentricities, unusual coincidences, and lack of corroboration” as in the case of State v. Perron, 94-

26a
0761, p. 6 (La. App. 4 Cir. 12/27/96), 686 So.2d 994,
997, writ denied, 97-0090 (La. 1/24/97), 686 So.2d
869, establish that the evidence is insufficient to establish his identity beyond a reasonable doubt. In
Perron the State’s evidence as to identity rested
upon the testimony of a police officer, Len Davis,
who was later convicted of murder. Officer Davis
testified that the defendant, while illuminated by
streetlights, discharged a rifle into a crowd of thirty
to forty people only fifteen to twenty feet away.
However, no one was injured, and the State presented no witnesses to corroborate Officer Davis’s
testimony. Furthermore, Officer Davis testified that
he and other persons fired back at the defendant as
he ran behind a vehicle; however, the vehicle was
never hit by any gunfire, despite the fact that police
gathered over forty spent casings from the scene
and the casings came from at least six weapons.
This Court found that, given Officer Davis’s incredible testimony, which was contradicted by the physical evidence and uncorroborated by any other witness, no rational jury could find the defendant
guilty beyond a reasonable doubt.
This case does not rise to the level of Perron. The
only arguable inconsistency in Mrs. Simon’s testimony is her statement that she did not get a real
good look at the perpetrator and would need a photo
to identify him. The physical evidence did not contradict her testimony. A rational juror could find beyond a reasonable doubt that the defendant was the
subject who shot the victim and fled on a bicycle.

27a
The appellant pro se further argues that Mrs. Simon’s identification of his photograph is suspect because she had only a glimpse of the perpetrator, that
her identification rested upon particular facial characteristics, and that none of the faces of the persons
included in the photographic lineup, except his, contained these characteristics which were described
by Mrs. Simon as thick eyebrows and eyes that “sit
back”.
To suppress an identification, a defendant must
prove that the identification itself was suggestive
and that there was a substantial likelihood of misidentification as a result of the identification procedure. State v. Nogess, 98-0670, pp. 3-4 (La. App. 4
Cir. 3/3/99), 729 So.2d 132; State v. Hankton, 961538, p. 8 (La. App. 4 Cir. 9/16/98), 719 So.2d 546,
550, writ denied, 98-2624 (La. 1/29/99), 736 So.2d
828. If the identification procedure is found to have
been suggestive, the court must then determine
whether there was a substantial likelihood of misidentification by looking to the five factors enunciated in Manson v. Brathwaite, 432 U.S. 98, 97 S. Ct.
2243, 53 L.Ed.2d 140 (1977), as adopted by the Louisiana Supreme Court in State v. Prudholm, 446
So.2d 729, 738 (La. 1984): (1) the witness’s opportunity to view the defendant at the time the crime
was committed; (2) the degree of attention paid by
the witness during the commission of the crime; (3)
the accuracy of any prior description; (4) the level of
the witness’s certainty displayed at the time of identification; and (5) the length of time elapsed between the crime and the identification. Hankton, supra, 96-1538 at pp. 8-9, 719 So.2d at 550. The trial

28a
court’s determination on the admissibility of identification evidence is entitled to great weight and will
not be disturbed on appeal in the absence of an
abuse of discretion. Nogess, supra, at p.4, 729 So.2d
at 135.
The photographs used in the line-up presented
to Mrs. Simons have been made an exhibit to the
appeal record in this matter. A review of those photographs fails to support the defendant’s claim that
his photograph is different and distinctive so as to
render the identification suggestive. One of the photographs is relatively dissimilar to the rest because
of the lighter skin of the person depicted; however,
that is not the defendant’s photograph. The balance
of the six photographs depicts persons with similar
facial structures and skin color. Notably, the defendant’s eyebrows appear to be thinner than the
eyebrows shown in two other photographs. The appellant’s pro se claim that the photographic identification procedure was suggestive is without merit.
Accordingly, the conviction and sentence of appellant Willie J. Gipson is hereby affirmed.
AFFIRMED.

